               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Post-Implementation Review Process

                       Audit Report




                                         September 28, 2012

Report Number CI-AR-12-007
                                                                   September 28, 2012

                                              Post-Implementation Review Process

                                                         Report Number CI-AR-12-007




BACKGROUND:                                 associated with other initiatives
The U.S. Postal Service consolidates        and multiple facilities consolidated
mail processing operations to improve       into the same gaining facility is
operational efficiency and service. In      inconsistent. In addition, 14 of the 35
response to significant market changes      PIRs (40 percent) did not always
and mail volumes since 2006, the Postal     report results from the individual
Service has reduced the number of mail      consolidation worksheets that calculate
processing facilities from 673 in fiscal    PIR savings, resulting in an
year (FY) 2006 to 461 in FY 2011. The       understatement of about $4.8 million.
Post-Implementation Review (PIR) is         Finally, 32 of the 35 (91 percent) PIRs
used to evaluate the effectiveness of       were not completed timely. When the
consolidations by comparing actual          PIRs are not completed accurately or
savings and service impacts with            timely, it diminishes management’s
projections.                                ability to understand the complete AMP
                                            impact, ensure accountability, and take
This audit focused on 35 consolidations     any needed action.
that were implemented between FYs
2009 and 2011. Our objective was to         WHAT THE OIG RECOMMENDED:
evaluate the PIR process and the            We recommended that management
related savings calculations.               improve the PIR guidelines to separate
                                            savings and costs associated with
WHAT THE OIG FOUND:                         concurrent initiatives; implement the use
The PIR process used to evaluate            of automated data calculations for PIR
whether area mail processing (AMP)          worksheets; establish a process to
consolidations achieve projected            allocate savings and costs when
savings can be improved. Thirty-four of     multiple losing facilities are consolidated
35 final PIRs (97 percent) reported         into the same gaining facility; and
greater than projected savings based on     assess whether current PIR milestones
the methodology used; however,              to complete PIRs should be adjusted.
impacts from concurrent initiatives were
included and not identified separately in
the PIR.

The current policy pertaining to PIRs
could be improved to address reporting
inconsistencies. The process of
allocating costs and savings                Link to review the entire report
September 28, 2012

MEMORANDUM FOR:           DAVID E. WILLIAMS
                          VICE PRESIDENT, NETWORK OPERATIONS




FROM:                     MICHAEL A. MAGALSKI
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Post-Implementation Review Process
                          (Report Number CI-AR-12-007)

This report presents the results of our audit of the Post-Implementation Review Process
(Project Number 12WG007CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization or me at 703-248-2100.

Attachments

cc: Megan Brennan
    Corporate Audit and Response Management
Post-Implementation Review Process                                                                                  CI-AR-12-007



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Savings Achieved ............................................................................................................ 1

Concurrent Initiatives....................................................................................................... 2

Improve Post-Implementation Review Guidelines ........................................................... 3

Timely Post-Implementation Reviews ............................................................................. 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Additional Post-Implementation Review Results ......................................... 8

Appendix C: List of 35 Consolidations with Final Post-Implementation Review Results 10

Appendix D: Management’s Comments ........................................................................ 11
Post-Implementation Review Process                                              CI-AR-12-007




Introduction

This report presents the results of our audit of the Post-Implementation Review (PIR)
process for consolidating mail processing operations (Project Number 12WG007CI000).
Our objective was to evaluate the PIR process and the related savings calculations.
This self-initiated audit addresses operational risk. See Appendix A for additional
information about this audit.

The PIR is used to evaluate the effectiveness of consolidating mail processing
operations by comparing the projected Area Mail Processing (AMP) consolidation
savings to the actual savings after implementation. There are two PIRs performed after
a consolidation is implemented. The first PIR is completed within 30 days after the 2nd
full quarter following implementation and the final PIR is completed within 30 days after
the 1st full year of implementation.

Conclusion

The PIR process used to evaluate whether AMP consolidations achieve projected
savings can be improved. Thirty-four out of 35 final PIRs (97 percent) reported greater
than projected AMP savings based on the methodology used. However, impacts from
concurrent initiatives were included and not identified separately in the PIR. The current
policy pertaining to PIRs could be improved to address reporting inconsistencies. The
process of allocating costs and savings associated with other initiatives and multiple
facilities consolidated into the same gaining facility is only addressed in the PIR
summary narrative. In addition, 14 of the 35 PIRs (40 percent) did not always report
results from the worksheets resulting in an understatement of about $4.8 million. Finally,
32 of 35 (91 percent) final PIRs were not completed timely. When the PIRs are not
completed accurately or timely, it diminishes management’s ability to understand the
complete AMP impact, ensure accountability, and take any needed action.

Savings Achieved

The 35 final PIRs reviewed reported annual savings of about $467 million based on the
methodology used, a variance of more than $367 million (369 percent) over the
projected savings. This variance occurred due to better than expected AMP productivity
increases and savings from concurrent initiatives. See Appendix B for details on PIR
results and Appendix C for the list of 35 consolidations with PIR results.

In addition to the AMP savings, there were other benefits identified in the PIRs for the
35 consolidations. Specifically:

   Increased Productivity: Productivity increased 14 percent after the consolidations at
    the gaining facilities, which exceeded the 5-percent projected increase.
                                             1
Post-Implementation Review Process                                                                           CI-AR-12-007




   Reduced Standby Time1: Overall costs for mail processing standby time decreased
    by 56 percent – from about $7.7 million to $3.4 million. Of 39 gaining facilities,2 72
    percent achieved reductions in standby costs, while 18 percent experienced an
    increase. The remaining 10 percent reported no standby time before or after the
    consolidations.

   No employee layoffs: Employees impacted by the consolidation were reassigned to
    the gaining facility, another mail processing facility, or another facility outside the
    mail processing network. Other employees accepted early retirement incentives or
    resigned.

Concurrent Initiatives

Management reported impacts from concurrent initiatives in the PIR summary narrative
but did not separate the amounts associated with these initiatives from the consolidation
savings or costs. According to management, it is difficult to quantify amounts not directly
related to the AMP in the PIR. Management is aware of the impact from concurrent
initiatives on PIR results and is examining ways to clarify the PIR reporting.

The South Florida, FL Processing and Distribution Center (P&DC) consolidation
provides an example of the impact of concurrent initiatives on AMP savings. This AMP
projected $2.8 million in savings; however, the final PIR indicated $48 million in savings.
The additional savings resulted from multiple major initiatives within the district’s
processing plants including the closure of a Miami annex and the opening of the South
Florida Logistics and Distribution Center in Miami.

All of the 35 PIRs contained additional costs and savings from other initiatives with the
PIR results. These concurrent national and local initiatives included early retirement
incentives, tour compression,3 staff restructuring, staffing and scheduling study impacts,
and operational streamlining.

Although concurrent initiatives usually increase PIR savings, added costs can
also reduce projected savings. One of the 35 PIRs with an AMP projected savings of
$2.7 million was not achieved; instead, it had a shortfall of about $760,177.
Management noted in the PIR that costs associated with the deployment of three Flats
Sequencing System (FSS)4 machines were included in the Kilmer, NJ P&DC PIR, which
impacted the projected AMP savings.




1
  Workhours of mail processing employees who are kept on the clock, but are idle as a result of lack of work or
unplanned events.
2
  There were 35 consolidations, but four losing facilities consolidated operations into two different gaining facilities.
3
  Reduction of processing hours on the daytime shift.
4
  FSS is a mail-sortation system that automates the sorting of flat-sized mail into delivery address order.
                                                             2
Post-Implementation Review Process                                                                    CI-AR-12-007



Improve Post-Implementation Review Guidelines

The Postal Service significantly improved the AMP process in March 2008 with the
revision of Handbook PO-408.5 However, these changes focused on the worksheets
supporting AMP consolidations. A supporting workbook was developed to capture and
report the savings for an AMP. The PIR process was not updated and some procedures
are unclear and can lead to reporting inconsistencies.

The use of electronic worksheets, as with the current AMP worksheets, can improve the
consistency and accuracy of PIR results. Formulas in worksheets should calculate data
and transfer that data to other worksheets. Our review identified opportunities for
improvement with the individual PIR worksheets, multiple losing facilities and calculation
references section. Specifically:

   PIR Worksheets: The formula calculations, population, and reporting format showed
    14 of 35 PIRs (40 percent), of the PIR worksheets understated the total savings by
    about $4.8 million.

    o Not all supervisory and craft joint operations were included in the savings
      calculations for the “Non-Processing Craft Workhour” savings.

    o Data exclusion and population issues caused differences in the transportation
      savings.

Refer to Appendix B for PIR results comparison.

   Multiple losing facilities: The current PIR worksheet format does not separate
    savings for multiple losing facilities when consolidated into the same gaining facility,
    resulting in the same savings being attributed to both AMPs. For example, the
    Lakeland, FL P&DC and Manasota, FL P&DC PIRs include the exact savings from
    the same gaining facility’s craft, maintenance, and Postal Vehicle Service (PVS) 6
    reductions. The Lakeland PIR included 6 months of the Manasota AMP, while the
    Manasota PIR included 1 year of Lakeland’s AMP.

   Calculation References: The “Calculation References” section is part of the
    Executive Summary worksheet. Postal management developed this manual section
    to confirm the “Summary of Worksheets” section. In two PIRs, we found the
    calculation reference amounts did not match the AMP totals and the PIR summary of
    worksheets totals. Management stated the calculations reference is a manual
    process and should always be checked. Because the correct amounts were reported
    in the Summary of Worksheets totals, this issue did not impact the PIR results.



5
  Handbook PO-408, Area Mail Processing Guidelines, provides a process for the review and implementation of AMP
proposals.
6
  A service operated by Postal Service employees to transport mail between mail processing facilities, post offices,
Post Office branches, Post Office stations, detached mail units, various postal customers, and terminals.
                                                         3
Post-Implementation Review Process                                                                    CI-AR-12-007



Timely Post-Implementation Reviews

Our review of the 35 PIRs revealed that one final PIR was completed timely according
to the 60-day guideline.7 There were 32 final PIRs not completed within the guidelines’
timeframes and two8 that could not be confirmed.9 Management said the procedures do
not allow enough time for the completion of the PIRs. Specifically, due to the PIR data
collection period of generally 2 weeks, area management is left with only 2 weeks to
complete the PIR. Additionally, since FY 2010, the increase in AMP consolidations has
caused a delay in completing PIRs in a timely manner.

As of June 15, 2012, and based on the current PIR guidelines, 42 final PIRs should
have been completed. According to management, seven of the 42 PIRs have not been
completed due to the national network rationalization initiative to consolidate and reduce
the mail processing and transportation networks.

When PIRs are not completed10 accurately or timely, it diminishes management’s ability
to understand the complete AMP impact, ensure accountability, and take any needed
action.

Recommendations

We recommend the vice president, Network Operations:

1. Improve the Post-Implementation Review (PIR) process in Handbook PO-408, Area
   Mail Processing Guidelines to:

       Identify and separate savings and costs associated with other concurrent
        initiatives from savings and costs directly related to the area mail processing
        consolidation.

       Implement the use of automated data calculation and pre-population for PIR
        worksheets and checklists.

       Establish a process to allocate savings and costs when multiple consolidations
        are made into the same gaining facility.

       Assess whether current PIR timelines should be adjusted.




7
  Chapter 7 of Handbook PO-408.
8
  Columbus, GA Customer Service Mail Processing Center and Hickory, NC Processing and Distribution Facility.
9
  Approval signature from the vice president, Network Operations was not included in the final PIR disposition.
10
   A PIR is not considered complete until it has been reviewed and approved by the vice president, Network
Operations.
                                                         4
Post-Implementation Review Process                                            CI-AR-12-007



Management’s Comments

Management agreed with the recommendation in the report. Specifically, management
stated that in response to recommendation 1, effective March 2014, the Postal Service
will update Handbook PO-408 and develop a separate PIR User’s Guide with detailed
processes for developing and completing a PIR. See Appendix D for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            5
Post-Implementation Review Process                                              CI-AR-12-007



                            Appendix A: Additional Information

Background

In response to significant market changes and mail volumes since 2006, the Postal
Service has consolidated mail processing facilities to eliminate excess capacity,
reducing the number of mail processing facilities from 673 in FY 2006 to 461 in
FY 2011.

The Postal Service uses Handbook PO-408, to consolidate mail processing operations
to improve operational efficiency and service. Following the implementation of an AMP,
a PIR is performed to assess whether planned savings, costs, workhours, and levels of
service are achieved. Two PIRs are performed to measure savings before and after the
AMP consolidation:

   The first PIR is completed within 30 days after the 2nd full quarter (about 6 months)
    following the completed implementation. It indicates whether the gaining facility is on
    target for achieving expected savings and alerts management to change or correct
    deficiencies. If needed, an action plan is developed to ensure targets are met by the
    gaining facility.

   The final PIR is completed within 30 days after the 1st full year of the completed
    implementation. It compares the AMP data against the actual results and determines
    the viability of the consolidation and allows management the opportunity to analyze
    the results.

Between FYs 2004 and 2011, the Postal Service implemented 103 AMP consolidations.
Since FY 2004, the Postal Service improved the AMP process by updating the criteria
and revised Handbook PO-408 in March 2008.

Objective, Scope, and Methodology

Our audit objective was to evaluate the PIR process and related savings calculations.
We reviewed the PIR process, including AMP and PIR supporting documentation,
interviewed Postal Service officials, and evaluated the impact to PIR savings from other
initiatives.

Our scope focused on 35 final PIRs completed or due by June 15, 2012. We did not
review PIRs associated with the 14 AMPs implemented between FYs 2004 and 2008.
As of June 15, 2012, the Postal Service should have completed 42 final PIRs for AMPs
implemented in FYs 2009 through 2011. According to management, seven of the 42
PIRs have not been completed due to other network rationalization efforts. We did not
review service standard impacts in this audit.

We relied on supporting documentation provided by the Postal Service to analyze
savings calculations associated with PIR results. We confirmed the accuracy of data
and our analysis with management.
                                             6
Post-Implementation Review Process                                                CI-AR-12-007




We conducted this performance audit from April through September 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on September 10, 2012, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG identified one prior audit or review related to the objective of this audit:

U.S. Postal Service Past Network Optimization Initiative (Report Number CI-AR-12-003,
dated January 9, 2012), stated the Postal Service improved the AMP process by
updating feasibility studies and stakeholder communication. The PIRs indicated that
Postal Service realized annual savings of about $323 million. However a variance of
more than $229 million occurred, because concurrent initiatives’ savings were included
with AMP consolidation savings. We noted five of the 33 PIRs did not achieve projected
savings and 14 PIRs were past due. Management agreed with our findings and
recommendations and stated they will revise the Area Mail Processing Communications
Plan to incorporate stakeholder input concerning AMPs. Management will implement
this by June 2012. Management will also ensure resources are allocated to complete
PIRs timely. Management will implement this beginning in March 2012.




                                              7
Post-Implementation Review Process                                                                        CI-AR-12-007



                  Appendix B: Additional Post-Implementation Review Results

We consolidated data from the 35 final PIRs obtained from postal management and
then compared and reconciled the amounts with the individual worksheets and
executive summary results. Savings were primarily achieved from reductions in
workhours in the mail processing network, as detailed in the following table.

                                     Table 1: PIR Results Comparison

                                                                                                   (Under) and
            PIR Categories                                        PIR               OIG
                                                                                                  Over Reported
Function 1 Workhour Savings                                 $337,362,962        $337,362,962                 $0
Non-Processing Craft Workhour Savings (less
                                                                 27,432,079       31,742,993           (4,310,914)
Maintenance/Transportation
Postal Career Executive Service/Executive and
                                                                 54,916,821       54,916,821                    0
Administrative Schedule Workhour Savings
Transportation Savings                                        24,636,699          25,171,761            (535,062)
Maintenance Savings                                           22,187,835          22,187,835                    0
Space Savings                                                     212,791             212,791                   0
                        Total Annual Savings               $466,749,187*        $471,595,163         ($4,845,976)
                              One-Time Costs                  (6,631,770)         (6,631,770)                   0
                       Total 1st Year Savings               $460,117,417        $464,963,393         ($4,845,976)
Note: *Due to rounding differences, this amount is less than the total annual savings in Appendix C.

Workhours
Mail processing workhour costs declined 14 percent, from about $2.4 million to
$2 million. The total savings from workhour reductions amount to 96 percent of the total
annual savings of $467 million, which included savings noted above in Function 1 (mail
processing) craft workhours, non-processing craft workhours, and Postal Career
Executive Service/Executive and Administrative Schedule (PCES/EAS) workhours.
Other workhour reductions came from PVS transportation and maintenance workhour
savings, about $14 million and $15 million, respectively.

Transportation
Transportation costs decreased from about $460 million to $435 million (5 percent).
Specifically, $8 million was saved in contract costs over the term of the existing highway
contract routes.11 PVS savings included $3 million on mileage and leased vehicles and
about $14 million in PVS workhour reductions.

Maintenance
Total maintenance costs were reduced to $670 million from about $693 million. The
consolidations resulted in a 3-percent reduction in maintenance costs from workhour
reductions, parts, and supplies. Long-term initiatives continue to be addressed to
improve performance and reduce costs.




11
     A service operated by a Postal Service contractor to transport mail in bulk between designated points.
                                                             8
Post-Implementation Review Process                                             CI-AR-12-007



Space
Only two12 of the consolidations reported space savings resulting in a slight increase to
the savings. When space becomes available through the relocation of operations for
Postal Service owned or leased facilities, savings may be achieved from the vacated
space.

One-Time Costs
Total one-time costs reduced the 1st year annual savings by $6.6 million. These costs
are related to employee and equipment relocations and facility costs.




12
     Bloomington, IN P&DC and Kansas City, KS P&DC.
                                                      9
Post-Implementation Review Process                                                                               CI-AR-12-007



     Appendix C: List of 35 Consolidations with Final Post-Implementation Review
                                        Results

      Area   Losing Facility         ST     Gaining Facility                       ST      Type              Annual Savings
1      SE    Athens CSPMC             GA    North Metro P&DC                        GA   Originating             $14,756,624
2      NE    Binghamton P&DF          NY    Syracuse P&DC                           NY   Originating              11,703,480
3      GL    Bloomington P&DC         IN    Indianapolis P&DC                       IN   Originating               8,324,664
4      EA    Canton P&DC              OH    Akron P&DC                              OH   Originating               7,045,503
5      NE    Cape Cod P&DF            MA    Brockton P&DC                           MA   Originating               7,306,130
6     CM     Charlottesville P&DF     VA    Richmond P&DC                           VA   Orig&Dest                12,582,931
7     SW     Columbus CSMPC           GA    Macon P&DC                              GA   Originating               2,697,748
8      GL    Detroit P&DC             MI    Michigan Metroplex P&DC                 MI   Originating              43,212,948
9      GL    Flint P&DC               MI    Michigan Metroplex P&DC                 MI   Originating               2,292,466
10    CM     Frederick P&DC           MD    Suburban P&DC                           MD   Originating               6,319,663
11    CM     Hickory P&DF             NC    Greensboro P&DC                         NC   Originating               7,841,897
12     EA    Jackson CSMPC            TN    Memphis P&DC                            TN   Originating               6,217,344
13    WE     Kansas City P&DC         KS    Kansas City P&DC                        MO   Orig&Dest                17,543,665
14     NY    Kilmer P&DC              NJ    Dominick V Daniels & Trenton P&DCs      NJ   Originating               (760,177)
15     EA    Kinston P&DF             NC    Fayetteville P&DC                       NC   Originating               6,169,790
16    SW     Lakeland P&DC            FL    Tampa P&DC                              FL   Originating              17,394,608
17     EA    Lima P&DF                OH    Toledo P&DC                             OH   Orig&Dest                 4,679,986
18     EA    London P&DF              KY    Lexington P&DC                          KY   Originating               4,942,534
19     PA    Long Beach P&DC          CA    Santa Ana P&DC                          CA   Originating              24,183,655
20    SW     Manasota P&DC            FL    Tampa P&DC                              FL   Originating              27,193,595
21     PA    Marysville P&DF          CA    Sacramento P&DC                         CA   Orig&Dest                 3,464,026
22     PA    Mojave PO                CA    Bakersfield P&DC                        CA   Destinating               4,571,231
23     EA    New Castle P&DF          PA    Pittsburgh P&DC                         PA   Originating              15,142,415
24     NE    Newark P&DC              NJ    DVD P&DC                                NJ   Destinating              38,160,143
25     PA    Oxnard P&DF              CA    Santa Clarita/Van Nuys P&DC             CA   Originating               1,925,650
26     NE    Portsmouth P&DF          NH    Manchester P&DC                         NH   Originating               9,662,394
27     NE    Queens P&DC              NY    Brooklyn P&DC                           NY   Originating              20,498,678
28    SW     South Florida P&DC       FL    Fort Lauderdale & Miami P&DCs           FL   Originating              48,042,827
29     NE    Staten Island P&DF       NY    Brooklyn P&DC                           NY   Originating               8,654,099
30     NE    Watertown PO             NY    Syracuse P&DC                           NY   Orig&Dest                11,586,942
31     NE    West Jersey P&DC         NJ    Northern NJ Metro & Kilmer P&DCs        NY   Destinating              27,832,979
             Western Nassau
32     NE    P&DC                     NY    Mid-Island P&DC                         NY   Originating               8,009,709
33     EA    Wheeling PO             WV     Pittsburgh P&DC                         PA   Originating              20,496,369
34     EA    Wilkes-Barre P&DF        PA    Scranton & Lehigh Valley P&DCs          PA   Orig&Dest                15,972,105
35    CM     Winchester PO            VA    Dulles P&DC                             VA   Orig&Dest                 1,080,569

                                                                                             TOTAL              $466,749,190

Source: US Postal Service Post-Implementation Reviews

Area Abbreviations                              Facility/Type Abbreviations
CM – Capital Metro.                             CSMPC – Customer Service Mail Processing Center.
EA – Eastern.                                   PO – Post Office.
GL – Great Lakes.                               P&DC – Processing and Distribution Center.
NE – Northeast.                                 P&DF – Processing and Distribution Facility.
NY – New York.                                  Orig/Dest – Originating and Destinating.
PA – Pacific.
SE – Southeast.*
SW – Southwest.*
WE – Western.

*Areas as noted on the PIRs; however, the Southeast and Southwest areas are now part of the Southern Area.

See following website for state abbreviations: http://www.stateabbreviations.us/




                                                                10
Post-Implementation Review Process                            CI-AR-12-007



                          Appendix D: Management’s Comments




                                         11
Post-Implementation Review Process        CI-AR-12-007




                                     12
Post-Implementation Review Process        CI-AR-12-007




                                     13
